<html>
<title> - H.R. 1963</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                               H.R. 1963
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 16, 2001
                               __________

                           Serial No. 107-68
                               __________

           Printed for the use of the Committee on Resources






 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov








                        U.S. GOVERNMENT PRINTING OFFICE
75-725                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado







                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 16, 2001.................................     1

Statement of Members:
    Christensen, Hon. Donna, a Delagate to Congress from the 
      Virgin Islands.............................................     3
    Costello, Hon. Jerry, a Representative in Congress from the 
      State of Illinois, Prepared statement of...................     2
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Coomer, Bob, Superintendent of Historic Sites, Illinois 
      Historic Preservation Agency, Springfield, Illinois........     6
        Prepared statement of....................................     7
        Letter from The Honorable George H. Ryan, Governor, State 
          of Illinois, submitted for the record..................     8
    Soukup, Dr. Michael, Associate Director, Natural Resource 
      Stewardship and Science, National Park Service, U.S. 
      Department of the Interior, Washington, DC.................     3
        Prepared statement of....................................     5









 LEGISLATIVE HEARING ON H.R. 1963, TO AMEND THE NATIONAL TRAILS SYSTEM 
 ACT TO DESIGNATE THE ROUTE TAKEN BY AMERICAN SOLDIER AND FRONTIERSMAN 
GEORGE ROGERS CLARK AND HIS MEN DURING THE REVOLUTIONARY WAR TO CAPTURE 
 THE BRITISH FORTS AT KASKASKIA AND CAHOKIA, ILLINOIS, AND VINCENNES, 
   INDIANA, FOR STUDY FOR POTENTIAL ADDITION TO THE NATIONAL TRAILS 
                                SYSTEM.

                              ----------                              


                       Tuesday, October 16, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., in Room 
1334, Longworth House Office Building, Hon. George Radanovich 
[Chairman of the Subcommittee] presiding.

STATEMENT OF THE HONORABLE GEORGE RADANOVICH, A REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF  CALIFORNIA

    Mr. Radanovich. Good morning and welcome to the hearing 
today. We have two panels that were scheduled to speak. 
Unfortunately, the Honorable Jerry Costello from Illinois is 
stuck in a plane somewhere between Illinois and Washington, 
D.C. And so won't be able to meet. So, we are going to have to 
dispense with Panel 1 and go straight to Panel 2 after the 
introductory remarks.
    We will begin the Subcommittee on National Parks. 
Recreation and Public Lands to hear testimony on H.R. 1963.
    H.R. 2238, introduced by Congressman Harold Rogers, was 
originally scheduled for consideration today but it has been 
rescheduled for this Thursday, October 18th.
    H.R. 1963 introduced by Congressman Jerry Costello of 
Illinois would authorize the Secretary of the Interior to study 
the suitability and feasibility of including the route taken by 
George Rogers Clark during the Revolutionary War as an addition 
to the National Trails System.
    The mission of William Rogers Clark and his men in 1779 led 
to Britain ceding what is now Ohio, Indiana, Illinois, 
Michigan, Wisconsin and the eastern portion of Minnesota. 
William Rogers Clark was the elder brother of William Clark of 
Lewis and Clark fame.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George P. Radanovich, Chairman, Subcommitee 
            on National parks, Recreation, and Public Lands

    Good morning and welcome to the hearing today. The Subcommittee 
will come to order. Today, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on H.R. 1963.
    H.R. 2238, introduced by Congressman Harold Rogers, was originally 
scheduled for consideration today, but has been rescheduled for 
Thursday, October 18.
    H.R. 1963, introduced by Congressman Jerry Costello of Illinois, 
would authorize the Secretary of the Interior to study the suitability 
and feasibility of including the route taken by George Rogers Clark 
during the Revolutionary War as an addition into the National Trails 
System.
    The mission of William Rogers Clark and his men in 1779 led to 
Britain ceding what is now Ohio, Indiana, Illinois, Michigan, Wisconsin 
and the eastern portion of Michigan. William Rogers Clark was the elder 
brother of William Clark of Lewis and Clark fame.
    I want to thank Congressmen Costello for introducing this bill and 
look forward to today's testimony. At this time, I would like to ask 
unanimous consent that Congressman Costello be permitted to sit on the 
dias following his statement. Without objection [PAUSE], so ordered.
    I'd like to thank all of our witnesses for being here today to 
testify on this bill, and now turn the time over to the Ranking Member, 
Ms. Christensen.
                                 ______
                                 
    Mr. Radanovich.I want to thank Mr. Costello for introducing 
this bill and at the same time ask unanimous consent that Mr. 
Costello be permitted to enter his remarks in the record. If 
there is no objection, then so ordered.
    [The prepared statement of Mr. Costello follows:]

   Statement of the Honorable Jerry F. Costello, a Representative in 
                  Congress from the State of Illinois

    Thank you Mr. Chairman and Ranking Member Christensen. I am pleased 
to have the opportunity to testify on H.R. 1963, legislation I 
introduced to authorize a study to include the path taken by George 
Rogers Clark into our National Trails System.
    George Rogers Clark was born in 1752, the second oldest of ten 
children, and the older brother of William Clark, of Lewis and Clark 
fame.
    During the Revolutionary War in 1778, Clark led his troops from 
Redstone, PA to Kaskaskia, IL, which is in the Congressional District I 
represent. They surprised Kaskaskia on the night of July 4, 1778 and 
occupied the fort and town without a single shot being fired. Clark 
offered the French settlers in Kaskaskia the privileges of American 
citizenship, and won the support of the French in region. He also won 
the neutrality of the Native Americans.
    This support was key as Clark led his troops on the final leg of 
their journey, as they moved to overtake the British in Vincennes, 
Indiana. Banking on the element of surprise, Clark led his troops 
across what is now the State of Illinois, from Kaskaskia to Vincennes. 
The journey would normally take between five and six days, but because 
of the freezing flood waters, the journey took 18 days. At times in icy 
water up to their shoulders, it was Clark's determined leadership that 
led his men through the incredible midwinter journey.
    Once arriving in Vincennes on February 23, 1779, Clark and his men 
forced the British to surrender just two days later on February 25, 
1779.
    As a result of Clark's outstanding military achievements, the 
British ceded a vast area of land to the United States, which is now 
Ohio, Indiana, Illinois, Michigan, Wisconsin and a portion of 
Minnesota. His actions were paramount in the establishment of the upper 
Midwest.
    The designation of the George Rogers Clark Trail would pay homage 
to an American hero who is infrequently recognized for his 
contributions to American history. The designation would also promote 
tourism in three of Illinois' State Historic Sites, and draw visitors 
to retrace Clark's historic path. Tourism is a growing and very 
important industry to Southern Illinois, and establishing a National 
Trail would be highly beneficial to the region.
    I strongly support this legislation, and urge my colleagues to join 
me in authorizing a study to designate the route of George Rogers Clark 
during the Revolutionary War for study for potential addition to the 
National Trails System.
                                 ______
                                 
    Mr. Radanovich. I would like to call the witnesses forward 
today on Panel 2. We have Michael Soukup who is the Associate 
Director of the Natural Resource Stewardship and Science 
Division of the National Parks Service. Good morning, Michael.
    And also Bob Coomer, who is the Superintendent of Historic 
Sites, Illinois Historic Preservation Agency, Springfield, 
Illinois.
    And forgive me. Please excuse me, Donna. I would like to 
give time to the Ranking Member to make some remarks before you 
begin your testimony.

  STATEMENT OF THE HONORABLE DONNA CHRISTENSEN, A DELEGATE TO 
             CONGRESS FROM THE U.S. VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman. I particularly 
wanted to at least make some opening remarks, since I am going 
to have to leave the hearing to open up another briefing.
    Today, as you have indicated, we will have testimony on 
H.R. 1963 introduced by our colleague, Mr. Costello. The 
legislation provides for a study of the route used by George 
Rogers Clark and his troops during the military campaign of 
1778 and 1779 in what is now Illinois and Indiana.
    The military campaign conducted by George Rogers Clark is 
regarded as an important event in the Revolutionary War. The 
purpose of the trails' study authorized in H.R. 1963 would be 
to determine whether portions of the route used in that 
campaign meet the criteria for designation as a Natural 
Historic Trail.
    I understand that the administration's testimony will 
recommend that the study be expanded to include an entire route 
of the military campaign, which seems to be a reasonable and 
logical request for this Subcommittee to consider.
    I appreciate the attendance of our witnesses today. I 
promise you I will read your testimony. I am sorry that I do 
have to leave to attend another briefing. If I can get back, I 
will.
    Mr. Radanovich. Thanks, Mrs. Christensen. Are there any 
remarks from anybody else on the Committee? Mr. Hefley, any 
remarks? Mr. McGovern? No. Okay, thanks.
    With that, then, we will go ahead and start with the panel. 
We will begin with Mr. Soukup. Thank you and welcome back to 
the Committee.

   STATEMENT OF MICHAEL SOUKUP, ASSOCIATE DIRECTOR, NATURAL 
 RESOURCE STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, THE 
          DEPARTMENT OF THE INTERIOR, WASHINGTON, D.C.

    Mr. Soukup. Thank you, Mr. Chairman.
    I appreciate the opportunity to present the Department of 
Interior's views on H.R. 1963. This bill would amend the 
National Trails Systems Act to authorize the Secretary of the 
Interior to study the route used by George Rogers Clark during 
the Revolutionary War to capture the British forces at 
Kaskaskia and Cahokia, Illinois and Vincennes, Indiana as a 
potential addition to the National Trails System.
    The Department supports H.R. 1963 with an amendment to 
clarify the boundary of the area to be studied. However, in 
light of the President's commitment to reducing the backlog of 
deferred maintenance needs within the national park system, we 
will neither request funding for this study in this fiscal 
year, so as to focus available time and resources on completing 
previously authorized studies, nor be able to begin the study 
until at least fiscal year 2002.
    There are 39 authorized studies that are still pending and 
we only expect to complete a few of those this year. 
Furthermore, in order to better plan for the future of our 
national parks, we believe that the studies should carefully 
examine the full life cycle operation and maintenance costs 
that would result from each alternative considered. 
Additionally, our support for this study legislation should not 
be interpreted to mean that the Department would necessarily 
support designations that may be recommended by the study.
    H.R. 1963 calls for the completion of a study of the George 
Rogers Clark Northwest Campaign Trail. This trail traces the 
water and overland route of 1778 and 1779 expedition of 
Lieutenant Clark and his Virginia militia against the British 
in which he captured the British forts at Kaskaskia and Cahokia 
in what is now Illinois, and twice captured Vincennes, in what 
is now Indiana.
    In 1778 Clark led a campaign into what became the Northwest 
Territory and captured the British post at Kaskaskia and 
Cahokia on the Mississippi River, and Vincennes on the Wabash 
River, although British forces from Detroit successfully 
recaptured the fort at Vincennes late in 1778. In February of 
1779, Clark marched with about 170 men across 180 miles of 
frozen flooded plains, at times wading in icy waters reaching 
their shoulders, to recapture the fort at Vincennes. The 
mission took 3 weeks and is regarded as one of the boldest in 
American history.
    As a result of this campaign, Clark assured American 
control of the Northwest Territory, a region that would include 
the States of Ohio and Indiana, Illinois, Wisconsin, Michigan 
and a portion of Minnesota. In April 1989, at the request of 
former Congressman Glenn Poshard, the Midwest Regional Office 
of the National Park Service prepared a preliminary assessment 
of whether the routes of George Rogers Clark during the 
Revolutionary War would qualify for study as a Natural Historic 
Trail.
    Based on the available information, the assessment 
concluded that the routes taken by Clark in 1778 to 1779 may 
meet the criteria for National Historic Trails. The next step 
would be for Congress to authorize a study to determine if the 
route indeed met the criteria and whether it would be suitable 
and feasible for establishment as a National Historic Trail.
    The 1989 assessment suggested that if a formal study is 
authorized, that it would be appropriate to include not only 
the portions of the campaign that took place in what is now 
Illinois and Indiana, but also Clark's route down the 
Monongahela and Ohio Rivers from the point of origin near 
Pittsburgh.
    We recommend that H.R. 1963 be amended to clarify that the 
boundaries of this study will include Clark's entire route from 
near Pittsburgh to Vincennes.
    Mr. Chairman, that concludes my remarks. I would be happy 
to answer any questions.
    Mr. Radanovich. Thank you, Mr. Soukup.
    [The prepared statement of Mr. Soukup follows:]

 Statement of Dr. Michael Soukup, Associate Director, Natural Resource 
Stewardship and Science, National Park Service, U.S. Department of the 
                                Interior

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H. R. 1963. This bill would amend 
the National Trails System Act to authorize the Secretary of the 
Interior to study the route used by George Rogers Clark during the 
Revolutionary War to capture the British forts at Kaskaskia and 
Cahokia, Illinois, and Vincennes, Indiana, as a potential addition to 
the National Trails System.
    The Department supports H. R. 1963 with an amendment to clarify the 
boundary of the area to be studied. However, in light of the 
President's commitment to reducing the backlog of deferred maintenance 
needs within the National Park System, we will neither request funding 
for this study in this fiscal year, so as to focus available time and 
resources on completing previously authorized studies, nor be able to 
begin the study until at least fiscal year 2003, as there are 39 
authorized studies that are pending, and we only expect to complete a 
few of those this year. Furthermore, in order to better plan for the 
future of our national parks, we believe that studies should carefully 
examine the full life cycle operation and maintenance costs that would 
result from each alternative considered. Additionally, our support of 
this study legislation should not be interpreted to mean that the 
Department would necessarily support designations that may be 
recommended by the study.
    H. R. 1963 calls for the completion of a study of the George Rogers 
Clark Northwest Campaign Trail. This trail traces the water and 
overland route of the 1778 and 1779 expedition of Lieutenant Colonel 
George Rogers Clark and his Virginia militia against the British in 
which he captured the British forts at Kaskaskia and Cahokia, in what 
is now Illinois, and twice captured Vincennes, in what is now Indiana.
    George Rogers Clark was one of the prominent figures of the 
American frontier. Born in Virginia in 1752, he migrated to the 
wilderness beyond the Appalachians in 1772. By 1775 he had gained a 
position of leadership in the Kentucky region.
    In 1778, Clark led a campaign into what became the Northwest 
Territory and captured the British posts at Kaskaskia and Cahokia on 
the Mississippi River and Vincennes on the Wabash River, although 
British forces from Detroit successfully recaptured the fort at 
Vincennes late in 1778.
    In February of 1779 Clark marched with about 170 men across 180 
miles of frozen, flooded plains, at times wading in icy waters reaching 
their shoulders, to recapture the fort at Vincennes. The mission took 
three weeks and is regarded as one of the boldest in American history. 
As a result of this campaign, Clark assured American control of the 
Northwest Territory - a region that would include the states of Ohio, 
Indiana, Illinois, Wisconsin, Michigan, and a portion of Minnesota.
    In April of 1989, at the request of former Congressman Glenn 
Poshard, the Midwest Regional Office of the National Park Service 
prepared a preliminary assessment of whether the routes of George 
Rogers Clark during the Revolutionary War would qualify for study as a 
National Historic Trail. Based on available information, the assessment 
concluded that the routes taken by Clark in 1778-1779 may meet the 
criteria for National Historic Trails. The next step would be for 
Congress to authorize a study to determine if the route indeed meets 
the criteria and whether it would be suitable and feasible for 
establishment as a National Historic Trail.
    The 1989 assessment suggested that if a formal study is authorized 
that it would be appropriate to include not only the portions of the 
campaign that took place in what is now Illinois and Indiana, but also 
Clark's route down the Monongahela and Ohio Rivers from the point of 
origin near Pittsburgh. We recommend that H. R. 1963 be amended to 
specify that the boundaries of the study will include Clark's entire 
route from near Pittsburgh to Vincennes.
    Mr. Chairman, this concludes my prepared remarks. I would be happy 
to answer any questions that you or other members of the subcommittee 
may have.
                                 ______
                                 
    Mr. Radanovich. We will go on to the testimony of the next 
witness and then open it up for questions. Mr. Coomer, welcome 
to the Committee and please begin your testimony.

  STATEMENT OF BOB COOMER, SUPERINTENDENT OF HISTORIC SITES, 
  ILLINOIS HISTORIC PRESERVATION AGENCY, SPRINGFIELD, ILLINOIS

    Mr. Coomer. Thank you, Mr. Chairman, and I appreciate the 
opportunity to be here this morning.
    A George Rogers Clark Northwest Campaign Trail would 
authentically mark and appropriately commemorate a series of 
especially important heroic episodes that occurred during the 
western phase of the American Revolution.
    In the summer of 1778, George Rogers Clark was a 25-year-
old captain in the Virginia militia when he planned and then 
boldly launched an expedition to seize control of Great 
Britain's western empire. Clark gathered volunteers near the 
site of Louisville in the present State of Kentucky, floated 
his small army on flatboats down the Ohio River, and landed 
with 175 men at the southern tip of what is now the State of 
Illinois.
    After a grueling 6-day overland march, Clark and his men 
reached the Mississippi River village of Kaskaskia on July 4th 
of 1778. With a population of about 1,000, Kaskaskia was the 
largest of several old French towns across from what is now St. 
Louis.
    The village had been abandoned by its British garrison and 
Clark occupied it without firing a shot. Assisted by Kaskaskia 
French residents, he and his men then managed to occupy other 
small villages on the Mississippi, including Cahokia. A party 
also was sent to Vincennes, which again fell to the Americans 
without resistance. Clark's victory is especially significant 
as the first American success against the British Empire in the 
West.
    The British struck back in the fall of 1778 with a 
counterexpedition from Detroit that recaptured Vincennes. 
Realizing that he must act or be cut off from his eastern 
sources of supply, Clark mounted an expedition against the 
British at Vincennes. On February 5th, 1779, he left Kaskaskia 
with a force of about 150 men, and embarked on an 18-day forced 
march to Vincennes across what is now southern Illinois.
    The march has been described as the one of the most heroic 
and dramatic in the annals of the American Revolution. Clark 
and his men spent days wading through the icy waters that 
covered the prairies in places, and passed their nights on 
knolls protruding from the surrounding mud. They covered 180 
miles altogether, the last few miles in water up to their 
shoulders, and attacked the fort at Vincennes in the middle of 
the night on February 23rd. Two days later the British 
surrendered.
    Some historians have argued that without Clark's exploits, 
England might not have ceded the entire Northwest to the United 
States when the peace treaty that ended the revolution was 
signed in 1783. At the very least, George Rogers Clark and his 
men struck a heroic blow for American independence that would 
be most appropriately commemorated by the designation of a 
George Rogers Clark Northwest Campaign Trail.
    Establishing such trail in Illinois would greatly benefit 
programs and promote events that are associated with State 
historic sites including Fort Kaskaskia, Fort de Chartres and 
Cahokia Courthouse State Historic Sites.
    The trail would also provide opportunities for Illinois 
communities to establish interpretative programs to educate and 
attract visitors. In addition to the historic interpretative 
opportunities, the economic impact associated with tourism and 
historic site visitation is very important to this region of 
Illinois.
    More than 40 percent of the visitors surveyed in Illinois 
report their first interest has been historic sites, programs, 
and events. The George Rogers Clark Northwest Campaign Trail in 
Illinois will help preserve history and provide economic 
support for this region of southern Illinois.
    With that I conclude my comments, and will be more than 
happy to answer questions.
    [The prepared statement of Mr. Coomer follows:]

  Statement of Bob Coomer, Superintendent of Historic Sites, Illinois 
          Historic Preservation Agency, Springfield, Illinois

    A ``George Rogers Clark Northwest Campaign Trail'' would 
authentically mark and appropriately commemorate a series of especially 
important and heroic episodes that occurred during the western phase of 
the American Revolution.
    In the summer of 1778, George Rogers Clark was a 25-year-old 
captain in the Virginia militia when he planned and then boldly 
launched an expedition to seize control of Great Britain's western 
empire. Clark gathered volunteers near the site of Louisville in the 
present state of Kentucky, floated his small army on flatboats down the 
Ohio River, and landed with 175 men at the southern tip of what is now 
the state of Illinois. After a grueling six-day overland march, Clark 
and his men reached the Mississippi River village of Kaskaskia on July 
4, 1778. With a population of about 1,000, Kaskaskia was the largest of 
several old French towns across from what is now St. Louis. The village 
had been abandoned by its British garrison, and Clark occupied it 
without firing a shot. Assisted by Kaskaskia's French residents, he and 
his men then managed to occupy other small villages on the Mississippi, 
including Cahokia. A party also was sent to Vincennes, which again fell 
to the Americans without resistance. Clark's victory is especially 
significant as the first American success against the British empire in 
the West.
    The British struck back in the fall of 1778 with a counter-
expedition from Detroit that recaptured Vincennes. Realizing that he 
must act or be cut off from his eastern sources of supply, Clark 
mounted an expedition against the British at Vincennes. On February 5, 
1779, he left Kaskaskia with a force of about 150 men and embarked on 
an 18-day forced march to Vincennes across what is now southern 
Illinois. The march has been described as Tone of the most heroic and 
dramatic in the annals of the American Revolution.'' Clark and his men 
spent days wading through the icy waters that covered the prairies in 
places and passed their nights on knolls protruding from the 
surrounding mud. They covered 180 miles altogether, the last few miles 
in water up to their shoulders, and attacked the fort at Vincennes in 
the middle of the night on February 23. Two days later, the British 
surrendered.
    Some historians have argued that without Clark's exploits England 
might not have ceded the entire northwest to the United States when the 
peace treaty ending the Revolution was signed in 1783. At the very 
least, George Rogers Clark and his men struck a heroic blow for 
American independence that would be most appropriately commemorated by 
the designation of a ``George Rogers Clark Northwest Campaign Trail.''
    Establishing a George Rogers Clark Northwest Campaign Trail in 
Illinois would greatly benefit programs and promotion of Fort 
Kaskaskia, Ft. de Chartres and Cahokia Courthouse State Historic Sites. 
The trail would also provide opportunities for other Illinois 
communities to establish interpretive programs to educate and attract 
visitors.
    In addition, to the historic interpretation opportunities, the 
economic impact associated with tourism and historic site visitation is 
very important to this region of Illinois. More than 40% of visitors 
surveyed in Illinois report their first interest is historic sites and 
programs.
    The George Rogers Clark Northwest Campaign trail in Illinois will 
help preserve history and provide economic support throughout Southern 
Illinois.
                                 ______
                                 
    [A letter attached to Mr. Coomer's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T5725.001
    
    Mr. Radanovich. Thank you, Mr. Coomer.
    Mr. McGovern do you have any questions at all? No. Mr. 
Hefley?
    Mr. Hefley. Yes. Thank you, Mr. Chairman.
    What is the trail like now? I mean if we do this, would 
this be a trail designated along highways or county roads or 
what? There is obviously no--no designated trail at this point.
    Mr. Coomer. There is not a trail currently marked. From 
information that I have researched there are--the clear 
designation of the trail, there are three areas that have been 
identified. This is something that as a part of the study 
should be researched further. My feelings are it would pass in 
association with State routes or Federal highways linking 
really the southern part of Illinois near Fort Massic near what 
is Metropolis, Illinois, over to Kaskaskia and then back across 
the south central part of the State through to Vincennes, but 
would follow, as you say, State routes or Federal highways.
    Mr. Hefley. So basically it wouldn't be like a trail system 
in the West where people get on horseback and ride the trail or 
hike it or bike it. It wouldn't be that kind of trail. It would 
be a trail which had historical markers along the way of a 
highway?
    Mr. Coomer. I believe it could be either. And the study I 
think would probably provide that sort of support. But I 
might--in keeping with other trails that are being established 
in this region of Illinois, it would probably be very closely 
aligned to those.
    Mr. Hefley. Certainly Mr. Clark's exploits are worthy in 
history; it is an important thing. But you know, I am reminded 
that in practically every square foot of America it seems there 
is a likelihood somebody fought some kind of battle for some 
reason on it.
    How does the Park Service--we flood you with these requests 
for these studies, and part of the reason is that it is 
important to people back home. But part of the reason is that 
it is--the things that really should be a part of our park 
system we want in the park system and the genuine historic and 
national phenomena that are out there that we want to preserve.
    How do you all look at it? If we ask you to do a study, do 
you interpret that as meaning this is something Congress wants 
so we better justify it? Or do you look at it as, well, you 
know, if it doesn't have the significance of something else--my 
great grandfather joined the Illinois Calvary in the first year 
of the Civil War. Maybe we should designate the trail he took 
from Illinois to southern Missouri where he was captured before 
the end of the first year. Didn't have a glorious career, but 
it was important to the Hefley family. That is probably not 
something we ought to put in the park system.
    So do you come back to us sometimes and tell us, no, we 
really don't think this ought to be in the parks system? How do 
you look at it?
    Mr. Soukup. Yes, sir. We do have that problem. And we do 
have a mechanism for trying to be objective and fairly clinical 
about making these decisions. We have established criteria--we 
have three major criteria that look at the historical 
significance as well as the feasibility and the practicality of 
such a designation.
    So we have been, I think, fairly rigorous in applying the 
criteria across the board. And sometimes we do come back and 
say it should have some other kind of designation; perhaps not 
a national park, perhaps a local or State or county site for a 
level of significance that might be at the local or county 
level.
    The utility of the 1989 study I think is important here. We 
did the preliminary look at measuring up this site against the 
three major criteria that we use. And the site was recommended 
to be appropriate under these criteria.
    Now, the second step, which H.R. 1963 puts us into that 
step--that is, we would then look how feasible it is and 
whether or not it makes sort of economic and logistical sense. 
And, you know, the first question that you ask: Is the site 
intact enough or is the trail intact enough?
    Those kinds of questions will be studied after this 
legislation is passed, if it should be passed, and those 
decisions will be looked at very, very intensely with a lot of 
stakeholder interest and things like that.
    Mr. Hefley. Well, I hope the Park Service would level with 
us on this, because you are the experts and you know much 
better than we do sitting here whether something really fits 
and whether it really is feasible. I think these kinds of 
things add to the mosaic of our country.
    I remember my father was a great historian, and when we 
would go on vacation trips--and I can't tell you the number of 
times the brakes went on and we swerved to the side of the road 
to read a historical marker because we might miss something. 
But that was good. That was the--that enriched the trips.
    And so I think these things are good, but I want them to be 
significant. I want them to be things that really do make sense 
in the Park Service. And you can tell us that. So I appreciate 
your coming today.
    Mr. Radanovich. Thank you, Mr. Hefley. Ms. Solis.
    Ms. Solis. Yes. Thank you. Thank you, Mr. Chairman. Just if 
you could go through the three criteria, please.
    Mr. Soukup. I think that I have them here. Let me read them 
out to you. I thought that I had them here.
    Here they are. The first criteria: Was the trail 
established by historic use and is it historically sufficient 
as a result of that use? Is the trail's location sufficiently 
known to permit evaluation of public recreation and history 
interest potential?
    Second criteria. Is the route of national significance with 
respect to any of the several broad facets of American history, 
including military campaigns? Has the historic use of the trail 
had a far-reaching effect on broad patterns of American 
culture?
    And, No. 3, does the route have significant potential for 
public recreational use or historical interest based upon the 
historic interpretation and appreciation?
    Ms. Solis. Thank you. I just wanted clarification on this. 
This kind of spurs some ideas I might have for a trail that we 
would like to see done in our area. But I am sure that this is 
worthy of recognition.
    Mr. Radanovich. Thank you very much. Mr. Souder.
    Mr. Souder. I guess I have a couple of questions and a few 
comments. I appreciate you holding this hearing. As for 
Congressman Hefley, I wanted to point out that the only place 
where we do trails for people like your grandpa is in the West. 
If it is a Civil War site, then we will do it on an individual 
basis.
    In the Midwest we seem to have a different battle going on, 
and I kind of am a broken record on some of this, but it is a 
frustration.
    The Park Service said no to us on the Lincoln site in 
Springfield. The Park Service said no to us on the underground 
railroad site in Cincinnati, basically because there were 
powerful people that wanted it in New York State. They said no 
on the Reagan boyhood home. Most of the noes we have received 
in this Committee have been in the Midwest. It is partly 
because in the Midwest we haven't federalized most of the land. 
In the West, a lot of the land is federalized; therefore, 
relatively more pristine conditions. Some of these things were 
for a variety of reasons.
    But those of us in the Midwest--and sometimes I get 
frustrated because our history actually in some cases is 
earlier, at least contemporaneous, depending on what type of 
site we are looking at. But often we haven't preserved it as 
well. So in some of the ability to utilize the sites, it is a 
different mix than they have in the West. But it is clear that 
in the Midwest we have a couple of holes and this is one of 
them.
    That the war in the West in the American Revolution was 
critical, that had we not won, particularly at Vincennes and 
been able to hold it, lose it and get it back, that the whole 
next round, which was the Northwest Territory, would not have 
happened.
    I have been working on an additional study where we already 
have several history sites, like in this trail there are 
historic sites anchoring the ends that--on Anthony Wayne's 
battles where the two largest defeats of American armies have 
occurred, the Harmar and St. Clair defeats. We hear a lot about 
Sitting Bill and all of these guys in the West where maybe 75 
or 150 people were killed. Here you had armies of 800 and 1,600 
being wiped out and couldn't control the Northwest. Just like 
the underground railroad, certain highways.
    One of my questions is, does the National Park Service, 
when we propose the trails, do you look at overall gaps in the 
system, in other words; or is it predominantly driven by what 
we come up with and then you analyze it in that way?
    Mr. Soukup. Well, I think we are beginning to realize that 
there are larger themes that sort of need flushing out. And I 
think you will see a lot more emphasis in our studies these 
days on the entire picture of things, and perhaps this would 
fit in. I think this would, by any criteria--I think if it 
meets this criteria it would be fine. But there is a lot of 
emphasis now on providing a larger picture. The underground 
railroad is a good example.
    There are very few individual sites that are very intact 
and demonstrable, but the entire theme is an important one. And 
again, I think you will see a lot of deference given to that 
larger picture kind of thing in the future.
    Mr. Souder. For example, this summer I both went the Sante 
Fe Trail and also the Great Platt River Road. It is 
fascinating. But for the most part you can't stay on the trail 
all of the way. Some of the sites are better preserved and some 
need better preservation. But in the West, literally, when you 
start to look at our trail system map, they are all over the 
place. In the Midwest, there are clear gaps as far as the 
historical significance of which this would help cover.
    But when you will look at a trail, in this case I believe 
the drafting of it is fairly tightly defined around the crucial 
first campaign that actually was the most significant, because 
if he hadn't won the first one--kind of the remnants of the 
battles that occurred thereafter and the jockeying for position 
of the next few years.
    You have referred to a study that suggested that the trail 
might start in Pittsburgh. You can also argue that the trail 
shouldn't end at the first battle at Vincennes, because Clark 
didn't just disappear after that point.
    Do you think it makes more sense to have tightly defined 
trails like this one was, where, okay, here are the three 
places, it is a given year, and you have a construct; or do you 
think it is best to start with the origins; or does that vary 
by type of trail?
    Mr. Soukup. Well, that is--.
    Mr. Souder. In other words, like the Oregon Trail, Lewis 
and Clark Trail. Clearly, in Indiana we want the site where 
William Clark started. Virginia wants Monticello included. But, 
for example, in the California Trail or the Mormon Trail, do 
you start back where they started, go to the start of the 
trail, or how do you determine where the trail starts?
    Mr. Soukup. That is the art of the study that we will do. 
And I think it will look at a bunch of--a range of 
alternatives. And historians qualified in this kind of 
assessment will take these questions and parse them through in 
great detail and come back with a series of alternatives that 
would then, you know, be something that Congress could take a 
look at and decide which one they favor.
    You can do it many different ways. And the historic fabric 
that is left and the tangible trail areas and things like that, 
all of that will sort of be looked at and evaluated as feasible 
alternatives.
    Mr. Souder. Mr. Chairman, may I ask one other question? I 
know my time is up. I have had some concern as I have looked at 
the trail system and would hope that maybe the Park Service 
could come back to us with some sort of a recommendation. 
Internally you have to have some thoughts like this. But it 
looks to me--this came up in some of the western trails, that 
what happens is people start going a certain direction, they 
hear of another angle and they start off on that angle; then 
that gets really muddy, so they went over this way. And pretty 
soon your trail has many--it is all over the place, with a 
proliferation of roads by it.
    Is there a way that we can say, for example, if we did 
this: that there is the primary concentration and the one of 
greatest significance, and then there are auxiliary parts. In 
other words, Pittsburgh, where Clark gets organized to the 
launching point may be an auxiliary; then you have the primary, 
and then you have the follow-up. So that there are some--
politicians wouldn't like that, they would all like to have be 
primary. But some sort of acknowledgment of what was the key 
thing of national historic significance and what were the 
things that kind of pre- and post- led to that?.
    Mr. Soukup. That is what the historians will do. And 
whether or not the beginning of the expedition at Pittsburgh, 
it would seem to me that that would be part of the whole 
package, that you would really want to highlight the 
designation.
    But there will be a tremendous amount of discussion of what 
really is the event, what is significant about it, and what 
would be the alternatives; to present that to the American 
public in the larger context.
    Mr. Souder. Because, for example, there you may have a 
site, but not a trail; a site that leads as a preliminary and 
sites after, but the trail would be the thing of the period 
where it was most nationally significant, not the--otherwise 
from Pittsburgh to southwest Illinois--I mean, have you got a 
whole other proliferation of things that really weren't 
significant during that transit point, when the army was 
marching that was significant in the transit point.
    Mr. Soukup. I think it can be done in a fashion that 
highlighted the expedition which is a major event, as far as I 
can tell, and also lead people to the ancillary events and 
things that would be something that would be important but not 
really detract from the idea this is a trail established on 
this historic event. All of those things will be looked at over 
a period of years with historians and local stakeholders and 
things like that. I think the product will be something that we 
can take forward in Congress.
    Mr. Souder. I would hope, too, that the Vincennes, the 
Clark National Historical Park, and other sites in Illinois 
that are already part of the park system would be the anchors. 
That is one way to not have cost overburden our system is to 
use our existing structures in conjunction with that and not 
have a proliferation of lots of costs as we do these type of 
things.
    Mr. Soukup. The ends are done. And now there is an 
opportunity to put it together and get some sense of the 
magnitude of the event.
    Mr. Souder. I want to thank Mr. Coomer for his leadership. 
Without the help of State agencies and locally driving these 
things, they would never happen. So thank you for coming today 
and being part of this, and Mr. Costello and others for their 
leadership.
    Mr. Radanovich. Mr. Udall, do you have any questions?
    I do have a couple of questions. Mr. Soukup, do you ever 
when you do these studies, do you ever deny the study based on 
maintenance backlog for the Park Service; or do you approve and 
then come back later and say, well, you know, there is--we have 
a maintenance backlog and we can't do this right now? How does 
that work?
    Mr. Soukup. Well, in terms of queuing up the studies, if 
Congress provides legislation, we will do the study. The 
problem that I think you are referring to is right now that we 
have sort of a backlog of studies. We have 39 pending studies 
and they just take a while to get all of those feasible 
alternatives or nonfeasible alternatives studied by all parties 
interested. It does take a while. But it is my understanding 
that once a study is initiated, we apply the criteria, we do 
the study, and then we make it available to Congress, and 
Congress looks at the alternatives and decides whether or not 
to take action.
    Mr. Radanovich. But you never recommend--well, you do have 
an opinion when you do the study.
    Mr. Soukup. Yes.
    Mr. Radanovich. Do you think it is a viable project but, 
because of maintenance backlog, you are saying no?
    Mr. Soukup. I don't think that--I would have to get back to 
you on that. I don't think that would be our position. Our 
position would be these are the alternatives, these are the 
costs.
    Mr. Radanovich. Okay.
    Mr. Soukup. Certainly the Department may have something to 
say about that, or the administration.
    Mr. Radanovich. Okay. Mr. Coomer, what is your vision of 
this? From the West, Mark was mentioning earlier--it is a 
little bit different concept I think in the Midwest. What do 
you hope to have, markers along highways or--I know there are 
three spots that are pretty important in between the trails 
that kind of are landmarks. Is this a bike trail? Is this 
something--I am not sure I understand the concept of it being 
in the national trail system.
    Mr. Coomer. I am not exactly sure. I think the study would 
provide clarification along these lines.
    Mr. Radanovich. Maybe if I could ask, then, what you hope 
would come from this.
    Mr. Coomer. I would like to see it come as close to the 
trail as we can possibly make it. From what I gather, from what 
I understand, that needs to be researched further. There are 
three trails that have been identified. And I think there just 
needs to be a little more study done before that is determined.
    But what is critical, as you indicate, we have got other 
points in Illinois. Fort Kaskaskia, specifically the Cahokia 
Courthouse up in Cahokia, and then going across to Vincennes. 
The pieces I think are there. It is a matter of being able to 
link these, market these, provide opportunities for other 
communities to take advantage of this opportunity.
    I think that is the real benefit from our standpoint. In 
southern Illinois, tourism is a major force. The opportunities 
to take advantage of something of this kind of national 
significance.
    There was a question of criteria. We see various historic 
aspects having regional significance, State significance, 
national significance. This is certainly a national significant 
site. The opportunity to promote that, to market that, that 
this trail would bring with it, I think is just an excellent 
opportunity resource.
    Mr. Radanovich. Thank you. Any other questions from any 
other members?
    Mr. Souder. Mr. Chairman, may I make a brief comment on 
your question?
    Mr. Radanovich. Sure.
    Mr. Souder. That as someone who just this summer tried to 
go on some of these trails, when you take the Sante Fe Trail, 
most of the time--it is probably certainly one of the most 
famous, along with the Oregon Trail, where I tried to do it on 
the Flat River Road, that you are not always along the trail. 
Anymore than you are in Indiana and Illinois. That the road 
systems--people have irrigated differently in their farms. And, 
in fact, other than in Congressman Udall's district, there are 
hardly any ruts left, and it is because it is in the park, in 
the Pecos Park. There are ruts there. The only remaining trade 
facilities are in Pecos--which is now used as a Park Service 
building, which needs to be converted back to its original 
intent--and one in Sante Fe.
    What you have is, you can buy these books or you can get 
the stuff from the Park Service that will tell you where the 
sites are, but it is not a continuous thing that you can read 
or even follow on the highway. But you can, through the 
different sites connect it together.
    Similarly, on Flat River Road, it is very hard to see some 
of the different angles when you read the journals. But it is 
harder to duplicate in the Midwest because you have more 
buildings, not necessary in some of the rural areas, and some 
more distortion of the landscape. But I would argue that even 
our most famous trails are hardly perfect in trying to find or 
connect together.
    Mr. Hefley. I think you are absolutely right about that. 
Bents Fort, I don't know if you got to Bents Fort. Bents Fort 
is a wonderful reconstructed fort. That is not the original 
fort but it is the original location. It is at La Junta, 
Colorado on the Sante Fe Trail. It is a wonderful 
reconstruction. If you are ever out there you need to go.
    Mr. Souder. I took the Cimarron cutoff.
    Mr. Hefley. You are absolutely right. That is why I raised 
the question early on about whether this would be the kind of 
trail that you have in some places in the West, where you are 
trying to tie the trail systems together, so you can start on 
the East Coast and go to California on a trail, or whether it 
is something along highways; both of which, by the way, are 
important. Even in many cases if there is nothing really there 
from that time, to stand in front of a historic marker that 
says this is where Clark fought such-and-such a battle, and to 
look over the land and get kind of the feeling.
    I can get myself lost, and I almost smell the smoke and 
hear the cannons sometimes with just that kind of experience. 
So those are worthy experiences, too, as well as--because we 
are never going to put them all back together again, that is 
for sure. There are places in the West, because we don't get 
any rain, where you do have the tracks of the Oregon Trail and 
the Sante Fe Trail. But in the East, you change very quickly. 
And I think both are important.
    Mr. Souder. Could I make one other comment? One of our 
other problems in the reconstruction is that much of the 
western history is a little later, so there are more journals 
and trying to track the precise locations where Clark went is a 
little more difficult. We know we have Vincennes, and you can 
feel the battle there. We know that we have the earlier sites 
in Illinois.
    But it will be a little harder to piece together the in-
between parts, because in the western trails we have just tons 
of journals. In the trading journals they have everythin, what 
they carried, and so it is a little bit more difficult process, 
because we tend to be back about 50 to 100 years earlier. And 
this has really shown up in the Native American sites where we 
have so little documentation and in the West where there was a 
fascination with the disappearing Native Americans. So there 
were more pictures; photography had been developed.
    And it isn't that we don't have equal Native American 
history east of the Mississippi, but we don't have as much 
documentation, which is more of a challenge.
    Mr. Radanovich. All right. Any other questions?
    Ms. Solis. Yes, Mr. Chairman. Just a quick question. Is it 
my understanding that the law requires us to have a continuous 
trail, or that that be the criteria, that there be a beginning 
and an end, or are there sections where just--in the examples I 
am hearing in Committee, that you might have certain spots that 
don't lead anywhere, but that is an important site.
    Mr. Soukup. I think the reality of this trail would be that 
there are areas that are pretty much highway now. In fact, I 
think the earlier expedition followed what roads there were. 
And those in many cases had been paved over and become part of 
the road system.
    I think what you may find in this situation is sort of a 
series of different kinds of segments of trail. There may be 
parts that are documentable as part of the trail that haven't 
been made part of the road system.
    Certainly there are two street parks that have been 
established for those two forts, Fort Massic and Kaskaskia.
    So there are pieces that are there in different levels of 
preservation. And a good alternative will take advantage of 
those sites where you could actually hike the trail. There are 
parts of it that you can identify and other parts of it will be 
accessible by car, with road signs and pull-offs and that kind 
of thing. So I am sure there is going to be a potential 
association of all of those things should it be a recommended 
site.
    Ms. Solis. Just lastly, what type of community consultation 
process do you adhere to in deciding whether or not this trail 
is worthy to be recognized?
    Mr. Soukup. That will be a big part of the process. The 
communities, the local communities, all of the affected 
stakeholders, will have a chance to publicly comment in private 
consultation. The idea is to look and see what is feasible and 
what is supportable in the communities, and there is a long 
process of that. That is one of reasons it takes us years to do 
these studies.
    Mr. Radanovich. Any other questions? If not, the hearing is 
adjourned. Thank you very much.
    [Whereupon, at 10:40 a.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
